No.

IN THE

Supreme Court of the United States

MARK STANFORD KATZMAN,
Petitioner
Vv.
THE PEOPLE OF THE STATE OF MICHIGAN,

Respondent
PROOF OF SERVICE

I certify that on September 25, 2020, I served the following party with an electronic
copy of the Petition for Writ of Certiorari and its supporting documents:

Oakland County (Mich.) Prosecutor's Office
Appellate Division

1200 N. Telegraph Rd.

Pontiac, MI 48341
appellatedivision@oakgov.com

I sought and obtained consent to effect electronic service pursuant to this Court’s
order of April 15, 2020.

 

Counsel of Record
ROCKIND LAW

36400 Woodward Ave., Ste. 210
Bloomfield Hills, MI 48304
(248)-208-3800
